No. 20-240

 

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2019

 

COMMONWEALTH OF KENTUCKY,
Commonwealth
vs.
LARRY LAMONT WHITE
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

 

RESPONDENT LARRY LAMONT WHITE
BRIEF IN OPPOSITION

 

CERTIFICATE OF SERVICE

 

I, Kathleen Kallaher Schmidt, a member of the Bar of this Court, hereby certify that
on this day the 27th day of October, 2020, the attached Brief in Opposition, Motion
for Leave to Proceed Jn Forma Pauperis, and Appendix were mailed, first-class
postage prepaid, to counsel for Respondent, Hon. Matthew F, Kuhn, Counsel of
Record and Deputy Solicitor General, Hon. Jeffrey Allan Cross, Deputy Solicitor
General, Hon. Emily Lucas, Assistant Attorney General, Hon. S. Chad Meredith,

Solicitor General, Hon. Barry L. Dunn, Assistant Attorney General, and to Hon.
Daniel Cameron, Attorney General of the Commonwealth of Kentucky, Office of the
Kentucky Attorney General, 700 Capital Avenue, Suite 118, Frankfort, Kentucky
40601, (502) 696-5300, Counsel for Respondent.

All parties required to be served have been served.

Respectfully Submitted,

KATHLEEN KALLAHER SCHMIDT
Counsel of Record

ERIN HOFFMAN YANG

Assistant Public Advocate

Kentucky Department of Public Advocacy
5 Mill Creek Park, Ste. 100

Frankfort, Kentucky 40601

(502) 564-8006

kathleen.schmidt@ky.gov
erin.yang@ky.gov
